TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Most Taxpayers Whose Identities Have Been
                  Stolen to Commit Refund Fraud Do Not
                     Receive Quality Customer Service



                                            May 3, 2012

                              Reference Number: 2012-40-050




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                     HIGHLIGHTS


MOST TAXPAYERS WHOSE IDENTITIES                         supporting identity documents. However, the
HAVE BEEN STOLEN TO COMMIT                              IRS has been processing these tax returns using
REFUND FRAUD DO NOT RECEIVE                             standard processing procedures.
QUALITY CUSTOMER SERVICE                                Identity theft guidelines and procedures are
                                                        dispersed among 38 different Internal Revenue
Highlights                                              Manual sections. These guidelines are
                                                        inconsistent and conflicting, and not all functions
                                                        have guidelines on handling identity theft issues.
Final Report issued on May 3, 2012
                                                        The IRS uses little of the data from the identity
Highlights of Reference Number: 2012-40-050
                                                        theft cases to identify any trends, etc., that could
to the Internal Revenue Service Deputy
                                                        be used to detect or prevent future refund fraud.
Commissioner for Operations Support.
                                                        WHAT TIGTA RECOMMENDED
IMPACT ON TAXPAYERS
                                                        TIGTA recommended that the IRS: 1) establish
The Federal Trade Commission reported that
                                                        accountability for the Identity Theft Program;
identity theft was the number one complaint in
                                                        2) implement a process to ensure that IRS
Calendar Year 2011, and government
                                                        notices and correspondence are not sent to the
documents/benefits fraud was the most common
                                                        address listed on the identity thief’s tax return;
form of reported identity theft. As of
                                                        3) conduct an analysis of the letters sent to
December 31, 2011, the IRS’s Incident Tracking
                                                        taxpayers regarding identity theft; 4) ensure
Statistics Report showed that 641,052 taxpayers
                                                        taxpayers are notified when the IRS has
have been affected by identity theft in Calendar
                                                        received their identifying documents; 5) create a
Year 2011. The IRS is not effectively providing
                                                        specialized unit in the Accounts Management
assistance to victims of identity theft, and current
                                                        function to exclusively work identity theft cases;
processes are not adequate to communicate
                                                        6) ensure all quality review systems used by IRS
identity theft procedures to taxpayers, resulting
                                                        functions and offices working identity theft cases
in increased burden for victims of identity theft.
                                                        are revised to select a representative sample of
WHY TIGTA DID THE AUDIT                                 identity theft cases; 7) revise procedures for the
                                                        Correspondence Imaging System screening
This audit was initiated because the number of          process; and 8) ensure programming is adjusted
identity theft cases in the IRS has grown               so that identity theft issues can be tracked and
significantly over the last few years,                  analyzed for trends and patterns.
overwhelming IRS resources and burdening
taxpayers. Taxpayers testifying before                  The IRS agreed with all our recommendations.
Congress stated that they had to talk to multiple       It has established a governance structure to
IRS employees and were provided conflicting             oversee the enterprise-wide identity theft
instructions.                                           initiatives and plans to expand its identity theft
                                                        indicator codes identifying claims of identity
WHAT TIGTA FOUND                                        theft. It plans to review its suite of identity theft
                                                        letters and to update its guidance instructing
Identity theft cases are not worked timely and
                                                        employees to notify taxpayers acknowledging
can take more than a year to resolve.
                                                        receipt of documentation. The IRS currently has
Communications between the IRS and victims
                                                        specialized units in the Accounts Management
are limited and confusing, and victims are asked
                                                        function working only identity theft cases.
multiple times to substantiate their identity.
                                                        Finally, the IRS plans to create a specific quality
When taxpayers call the IRS to advise it that           review for identity theft cases and is currently
their electronic tax return was rejected because        evaluating options for enhancing its ability to
it appears another individual has already filed a       track and analyze the fraudulent identity theft
tax return using their identity, the IRS instructs      information removed from a taxpayer account.
them to mail in a paper tax return with the
Form 14039, Identity Theft Affidavit, attaching
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                May 3, 2012


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Most Taxpayers Whose Identities Have Been
                             Stolen to Commit Refund Fraud Do Not Receive Quality Customer
                             Service (Audit # 201140042)

 This report presents the results of our review to evaluate whether the Internal Revenue Service is
 effectively providing assistance to victims of identity theft. This audit is included in our Fiscal
 Year1 2012 Annual Audit Plan and addresses the major management challenges of Taxpayer
 Protection and Rights, Fraudulent Claims and Improper Payments, Tax Compliance Initiatives,
 and Providing Quality Taxpayer Service Operations.
 Management’s complete response to the draft report is included as Appendix VIII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (202) 622-5916.




 1
  A 12-consecutive-month period ending on the last day of any month, except December. The Federal
 Government’s Fiscal Year begins on October 1 and ends on September 30.
                      Most Taxpayers Whose Identities Have Been Stolen to Commit
                         Refund Fraud Do Not Receive Quality Customer Service




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          The Internal Revenue Service Is Not Effectively
          Providing Assistance to Victims Who Have Had Their
          Identities Stolen to Commit Tax Refund Fraud ............................................ Page 5
                    Recommendation 1:........................................................ Page 20

                    Recommendations 2 through 4:......................................... Page 21

                    Recommendations 5 through 7:......................................... Page 22

          Data From Identity Theft Cases Are Not Being Used to
          Prevent Refund Fraud ................................................................................... Page 23
                    Recommendation 8:........................................................ Page 24


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 25
          Appendix II – Major Contributors to This Report ........................................ Page 27
          Appendix III – Report Distribution List ....................................................... Page 28
          Appendix IV – Outcome Measure ................................................................ Page 29
          Appendix V – Identity Theft Indicators ........................................................ Page 30
          Appendix VI – Number of Identity Theft Incidents and Taxpayers
          Affected in Calendar Year 2011 ................................................................... Page 31
          Appendix VII – Assistor Job Titles and Duties ............................................ Page 33
          Appendix VIII – Management’s Response to the Draft Report ................... Page 34
        Most Taxpayers Whose Identities Have Been Stolen to Commit
           Refund Fraud Do Not Receive Quality Customer Service




                        Abbreviations

IPSU             Identity Protection Specialized Unit
IRS              Internal Revenue Service
IRSN             IRS Number
ITAAG            Identity Theft Assessment and Action Group
PGLD             Privacy, Governmental Liaison, and Disclosure
TIGTA            Treasury Inspector General for Tax Administration
                       Most Taxpayers Whose Identities Have Been Stolen to Commit
                          Refund Fraud Do Not Receive Quality Customer Service




                                                 Background

The Federal Trade Commission reported that identity theft was the number one complaint in
Calendar Year 2011. Government documents/benefits fraud was the most common form of
reported identity theft.
           Government documents/benefits fraud                            Identity theft was the number one
            increased 11 percentage points since Calendar                       consumer complaint for
                                                                                   Calendar Year 2011
            Year 2009.
                                                                            Government documents/benefits
           Florida is the State with the highest per capita               fraud was the most common form
            rate of reported identity theft complaints,                        of reported identity theft.
            followed by Georgia and California.1
Identity theft affects the Internal Revenue Service (IRS) and tax administration two ways—with
fraudulent tax returns and misreporting of income. Both can potentially harm taxpayers who are
victims of the identity theft. Figure 1 provides an illustrative description of both refund fraud
and employment-related fraud.
                Figure 1: Description of Refund and Employment Refund Fraud




          Source: TIGTA analysis of the identity theft process as it affects the IRS and taxpayers.

Employment-related identity theft can affect taxpayers when the IRS attempts to take
enforcement actions for allegedly unreported income. Refund fraud adversely affects innocent


1
    Federal Trade Commission, Consumer Sentinel Network Data Book (March 2011).
                                                                                                          Page 1
                    Most Taxpayers Whose Identities Have Been Stolen to Commit
                       Refund Fraud Do Not Receive Quality Customer Service



taxpayers’ ability to file their tax returns and timely receive the tax refunds they are due, often
imposing significant financial and emotional hardship on victims.
In July 2005, the Treasury Inspector General for Tax Administration (TIGTA) reported and the
IRS agreed that it needed a corporate strategy to address the growing challenge of identity theft.2
                                                      The IRS stated that it had developed an
                                                      Enterprise Identity Theft Strategy.
                                                      However, in March 2008, the TIGTA
                                                      reported that the IRS has not placed
                                                      sufficient emphasis on employment-related
                                                      and tax fraud identity theft strategies.3 The
                                                      IRS lacked the comprehensive data needed
                                                      to determine the impact of identity theft on
                                                      tax administration. It was recommended
                                                      that the IRS develop and implement a
                                                      strategy to address employment-related and
                                                      tax fraud identity theft that includes
                                                      coordinating with other Federal agencies
                                                      such as the Federal Trade Commission and
                                                      Social Security Administration to evaluate
                  www.idtheft.gov                     and investigate identity theft allegations
related to tax administration. Another recommendation focused on improvements in the use of
identity theft closing codes in the IRS compliance functions.
Since Calendar Year 2009, the number of tax-related identity theft incidents (primarily refund
fraud or employment related) reported by the IRS has increased.
The IRS developed and implemented identity theft indicator codes to centrally mark and track
identity theft incidents. Each indicator is input on affected taxpayers’ accounts using
Transaction Code 971 with any of six different action codes.4 The IRS currently uses these
identity theft indicators to gather IRS-wide identity theft data for reporting taxpayers affected
and identity theft incidents. For example, the IRS inputs Transaction Code 971 with the
following action codes:
        Action Code 501 – used when the taxpayer reported the identity theft. It is input after the
         IRS confirms a taxpayer is a victim of identity theft and resolves the case.

2
  TIGTA, Ref. No. 2005-40-106, A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity
Theft (July 2005).
3
  TIGTA, Ref. No. 2008-40-086, Outreach Has Improved, but More Action Is Needed to Effectively Address
Employment-Related and Tax Fraud Identity Theft (March 25, 2008).
4
  The IRS uses transaction codes to identify a transaction being processed and to maintain a history of actions posted
to a taxpayer’s account on the IRS’s main computer system. Action codes are used with certain transaction codes to
place indicators on taxpayers’ accounts.
                                                                                                              Page 2
                    Most Taxpayers Whose Identities Have Been Stolen to Commit
                       Refund Fraud Do Not Receive Quality Customer Service



       Action Code 506 – used when the IRS identifies and confirms a taxpayer who is an
        identity theft victim.
       Action Code 522 – used when the IRS receives a taxpayer’s identifying documentation.5
Although the IRS acknowledges that it does not know the number of identity theft open or closed
cases, Figure 1 shows the number of taxpayers the IRS reported as affected by identity theft and
the number of incidents since Calendar Year 2009.6
                                   Figure 2: Identity Theft Incidents
                                      Calendar Years 2009–2011
                               Action                       Action
                                                                                          Totals
          Calendar            Code 501                     Code 506
                                             7
            Year        Taxpayers   Incidents        Taxpayers   Incidents       Taxpayers     Incidents

             2009         60,048         90,542       194,031       365,911       254,079       456,453

             2010         69,142        101,828       201,376       338,753       270,518       440,581

             2011         87,322        110,750       553,730       1,014,884     641,052      1,125,634

        Source: IRS Identity Protection Incident Tracking Statistics Reports.

Additionally, the IRS reported that 176,353 taxpayers (222,752 incidences) had Transaction
Code 971 with Action Code 522 input to their accounts in Calendar Year 2011.8
Not all of these taxpayers filed tax returns or had filing requirements. Some individuals do not
have taxable income and therefore do not have a filing requirement.

The Privacy, Governmental Liaison, and Disclosure Office
In Fiscal Year9 2007, the IRS established the Privacy, Information Protection, and Data Security
Office, which in Fiscal Year 2011 was renamed the office of Privacy, Governmental Liaison, and
Disclosure (PGLD). One of the PGLD’s four functions is the Privacy and Information
Protection function, which oversees the Identity Protection Program.


5
  See Appendix V for a list of identity theft indicators with their descriptions.
6
  See Appendix VI for a list of identity theft incidents by IRS function or office and the number of taxpayers
affected.
7
  The number of incidents of identity theft is higher than the number of taxpayers because a taxpayer can have more
than one incident of identity theft.
8
  The taxpayers with accounts reflecting a Transaction Code 971, Action Code 522, may be duplicated in accounts
reflecting Transaction Code 971, Action Codes 501 and 506; therefore, Action Code 522 counts were not included
in calculating the total volume of incidents and taxpayers affected.
9
  A 12-consecutive-month period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
                                                                                                           Page 3
                   Most Taxpayers Whose Identities Have Been Stolen to Commit
                      Refund Fraud Do Not Receive Quality Customer Service



The Identity Protection Program provides oversight and coordination of identity theft at the IRS.
The Identity Protection Program office works closely with the Identity Protection Specialized
Unit (IPSU) located in the IRS’s Wage and Investment Division.
Identity Protection Specialized Unit
As part of the IRS’s strategy to reduce taxpayer burden caused by identity theft, the IPSU opened
October 1, 2008, dedicated to resolving tax issues incurred by identity theft victims. The intent
of this unit is to enable victims to have their questions answered and issues resolved quickly and
effectively. Victim assistors handle taxpayer inquiries from multiple sources, including a
dedicated identity theft telephone line. Victims can call a dedicated toll-free number,
(800) 908-4490, Monday through Friday, 7:00 a.m. to 7:00 p.m. local time. The unit was formed
to reduce taxpayer burden by providing individualized assistance, including:
        A single customer service representative to work with each identity theft victim to answer
         questions and help resolve his or her issues.
        A new and simplified process to verify taxpayer identity and identity theft.
        A place for taxpayers to self-report identity theft before it impacts their tax accounts.
        A place for taxpayers to self-report incidents where they may be at risk for identity theft
         because their Personally Identifiable Information has been compromised (for example, a
         stolen purse/wallet).
In addition, the unit assists taxpayers who have already had their tax accounts affected by
identity theft but have not yet had their issues resolved. The unit refers taxpayers to the IRS area
that is working the identity theft issue and also collaborates with that area to monitor the case
through resolution.
This audit was performed in the Wage and Investment Division Customer Account Services
function in the Fresno, California; Atlanta, Georgia; Andover, Massachusetts; and Philadelphia,
Pennsylvania, campuses10 and in the Operations Support Division in the PGLD office in
Washington, D.C., during the period June 2011 through January 2012. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.


10
  Campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct errors,
and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                          Page 4
                    Most Taxpayers Whose Identities Have Been Stolen to Commit
                       Refund Fraud Do Not Receive Quality Customer Service




                                       Results of Review

The Internal Revenue Service Is Not Effectively Providing Assistance
to Victims Who Have Had Their Identities Stolen to Commit Tax
Refund Fraud
Refund fraud victimizes innocent taxpayers by impeding their ability to file tax returns and
receive tax refunds. Our testing included:
        A review of a judgmental sample11 of 17 unique taxpayer cases classified as identity theft.
        Data analysis of approximately 1.1 million identity theft cases.
        Interviews with and surveys of more than 200 IRS employees involved in different
         aspects of identity theft.
        Reviews of identity theft guidelines and processes.
Identity theft cases are not worked timely. Communications between identity theft victims and
the IRS were limited and confusing, and victims were asked multiple times to substantiate their
identity.
These taxpayers would potentially benefit from improved customer service based on one or
more of the recommendations contained in this report. We calculated the taxpayers affected
annually using the PGLD Identity Protection Incident Tracking Statistics Reports as of
December 31, 2011, which showed 167,619 affected taxpayers during that period.12 The annual
total was extended for five years, for a total of 838,095 taxpayers expected to be burdened
without the recommended corrective actions.
Due to privacy and disclosure laws, examples of specific identity theft cases cannot be provided.
However, the following timeline illustrates a composite of the 17 case reviews.


11
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
12
  The 167,619 potential taxpayers burdened were calculated using the IRS’s Identity Protection Incident Tracking
Statistics Reports reflecting Transaction Code 971, Action Codes 501 and 506. The IRS determined that 473,433 of
the 641,052 taxpayers reflected in the reports as taxpayers affected were not burdened. These taxpayer accounts
may be subject to a fraud scheme and/or the taxpayers may not have a tax return filing requirement. These
taxpayers are not included in the calculation of the 167,619 taxpayers burdened. In addition, the taxpayers reflecting
a Transaction Code 971, Action Code 522, may be duplicated in Transaction Code 971, Action Codes 501 and 506,
and thus Action Code 522 counts were not included separately in the volume of taxpayers burdened. These figures
also do not include the Accounts Management Taxpayer Assurance taxpayers affected.
                                                                                                             Page 5
                    Most Taxpayers Whose Identities Have Been Stolen to Commit
                       Refund Fraud Do Not Receive Quality Customer Service




 February          The identity thief files a fraudulent tax return and obtains a tax refund. Subsequently,
 2009            the lawful taxpayer attempts to electronically file his tax return, for which he is due a
                 tax refund. He receives an IRS rejection notice stating that his Social Security Number
                 cannot be used more than once on the tax return or on another tax return.
                 The taxpayer calls the IRS toll-free telephone line and explains the situation to the
                 customer service assistor. The assistor, after authenticating the taxpayer, researches
                 his tax account and determines a tax return has already been filed using that name
                 and Social Security Number. The assistor advises the taxpayer to file a paper tax
                 return, attaching a Form 14039, Identity Theft Affidavit, or a police report and a valid
                 government-issued document such as a copy of a Social Security card, passport, or
                 driver’s license to the tax return, and mail it to the IRS.
                 The IRS receives the paper tax return in one of its processing sites and a technician
                 enters the data into the IRS’s computer system.13 It is not processed. A technician
                 determines it is a duplicate tax return and inputs the appropriate transaction code. The
                 duplicate return case is received in the Duplicate function, where an assistor identifies
                 this as a possible identity theft case. The assistor requests the paper tax return. The
                 case is set aside in a queue to be ultimately worked after April 15, when the filing
                 season14 has ended.15
 April           The taxpayer calls the IRS toll-free line again and asks when he will receive his tax
                 refund. The assistor researches the taxpayer’s account, determines a duplicate tax
                 return has been filed, and advises the taxpayer that there will be processing delays
                 and he may receive correspondence requesting additional information. The assistor
                 also advises the taxpayer to visit the IRS’s website at IRS.gov for additional
                 information and links related to identity theft.
 July            The taxpayer’s tax return is worked in the Duplicate function and determined to be an
                 identity theft case. The duplicative tax return is transferred to another unit to an
                 assistor whose responsibilities also include answering IRS toll-free telephone calls.
                 The case is scanned into a management information system and queued.
 September       The assistor begins working the case, orders copies of original tax returns, and sends
                 letters to the alleged identity thief and the taxpayer to attempt to determine who the
                 legitimate taxpayer is. The legitimate taxpayer responds, confirming that he did not file
                 the first tax return the IRS received.
 October         The taxpayer calls the IPSU and asks when he should expect his tax refund. The
                 assistor researches the case and advises him his case is being worked. The customer
                 service representative sends a referral to the assistor working the case.




13
   The paper tax return with all attachments is sent to the Files unit, which is a repository where paper tax returns
and related documents are stored.
14
   The filing season is the period from January to April 15 when most individual taxpayers file their tax returns.
15
   There are no procedures requiring that a tax return be set aside until the filing season is over. Cases are to be
worked when resources become available.
                                                                                                                Page 6
                    Most Taxpayers Whose Identities Have Been Stolen to Commit
                       Refund Fraud Do Not Receive Quality Customer Service




 November        The assistor determines which is the legitimate taxpayer, requests adjustments to the
                 taxpayer’s account, and sends a letter to the identity thief providing him or her with a
                 temporary tax identity number and a letter to the legitimate taxpayer advising him he
                 has been a victim of identity theft and his account has been flagged.
 December        The legitimate taxpayer receives the letter from the IRS and calls the IPSU to inquire
                 when he will receive his tax refund. The assistor advises him that it has been
                 scheduled.
 January         The adjustments post to the legitimate taxpayer’s account and the refund is released.
                 He receives another letter advising him he has been a victim of identity theft and his
                 account has been flagged. A tax account for the person who committed the identity
                 theft is also established.16

Identity theft cases can be more complex and can present considerable challenges throughout the
resolution process. For instance, it can be difficult to determine who is the legitimate taxpayer or
if the case is actually a case of identity theft. Taxpayers sometimes transpose digits in Social
Security Numbers, but do not respond to the IRS when it requests information to resolve the
case. As a result, the IRS may not be able to determine who the legitimate taxpayer is.
Additionally, the Social Security Administration can inadvertently issue two taxpayers the same
Social Security Number.
In other instances, taxpayers attempt to claim they have been a victim of identity theft when the
IRS examines their tax returns and questions credits, deductions, and/or expenses. For example,
a taxpayer initially filed a tax return and received a tax refund. However, after the IRS examines
the tax return, the taxpayer claims not to have filed it, stating he or she has been a victim of
identity theft and therefore is not liable for any taxes owed as a result of the examination.
The growth of identity theft presents considerable challenges to tax administration. Although the
IRS has an identity theft strategy and has established several programs and key initiatives over
the past few years, it has not been able to keep pace with the rapidly growing inventories of
identity theft cases. Identity theft case processing is decentralized throughout the IRS, with
limited coordination and oversight. Standard IRS processes and resource constraints have
hindered timely and effective case resolution.
In August 2011, the IRS completed an assessment of the current state of its Identity Theft
Program and is planning changes to improve the Program
In April 2011, the IRS decided to contract with an outside contractor and conduct an
enterprise-wide assessment of the Identity Theft Program. The goal was to assess the current
state of the IRS’s Identity Theft Program and develop a plan to address the growing identity theft
inventory, to include developing metrics for identity theft cases and tools to reduce taxpayer


16
  Even though a tax return is fraudulent, the IRS retains a record of the tax return by creating a tax account under a
tax identification number that the IRS creates. The identity thief’s tax return is subsequently posted to this account.
                                                                                                                Page 7
                     Most Taxpayers Whose Identities Have Been Stolen to Commit
                        Refund Fraud Do Not Receive Quality Customer Service



burden and increase processing efficiencies. The Identity Theft Assessment and Action Group
(ITAAG) first met in June 2011.
The ITAAG also presented its IRS Identity Theft Program Future State Report,17 which provides
its vision for the future state of the Identity Theft
Program and supporting recommendations to obtain          The Future State Report provides
that vision.                                             high-level recommendations and a
       The IRS Identity Theft Program will provide clear,               strategic approach for the overall
       seamless, and timely service to legitimate taxpayers            future state operating model of the
       while barring fraudulent filers from gaining access to             IRS’s Identity Theft Program.
       refunds and information.

Many of the recommendations have already begun to be implemented. The Identity Theft
Program will remain decentralized, but with dedicated identity theft employees in each business
function. Every IRS division will make identity theft cases a higher priority in their work. The
IRS is implementing new procedures and processes intended to resolve cases faster and
minimize the disruption to innocent taxpayers. It is also planning to create a way to timely and
accurately track and report on the status of all identity theft cases.
The ITAAG’s assessment was comprehensive and identified many of the same issues and
concerns identified during this review. Its recommendations are far reaching and designed to
improve the current state of the Identity Theft Program. However, the recommendations do not
address all concerns identified in this audit and may not be sufficient to significantly reduce the
burden identity theft has on tax administration and taxpayers who have had their identities stolen
to commit refund fraud.

Identity theft cases can take more than a year to resolve
A review of a judgmental sample of 17 unique taxpayer cases classified as identity theft and
originating in five functions showed:
          Case resolution averaged 414 days; cases were open from three to 917 days. Time was
           calculated from the date a taxpayer’s case(s) was first opened until the last day when the
           case(s) closed.18 This does not include the additional time after a case is closed for the
           taxpayers to receive any applicable tax refunds.
          Inactivity on cases averaged 86 days; inactivity ranged from 0 to 431 days.
          The 17 taxpayers had 58 different cases opened and multiple assistors worked their cases.
The IRS does not have standard criteria for how long it takes to work identity theft cases. Each
function and office that works identity theft cases sets its own criteria.

17
     IRS, IRS Identity Theft Program Future State Report (August 11, 2011).
18
     Some taxpayers had multiple cases open involving more than one tax year.
                                                                                                      Page 8
                      Most Taxpayers Whose Identities Have Been Stolen to Commit
                         Refund Fraud Do Not Receive Quality Customer Service



A substantial volume of identity theft cases involving refund fraud and duplicate filing issues are
worked in the Accounts Management function.19 The Accounts Management function stated that
it takes from 45 to 365 days for assistors to work an identity theft case, depending on the
category code (source of the case). However, these time frames are merely indicators of when a
case is considered over age, have not been used to establish a baseline against which to measure
quality, and are not based on historical data.
The ITAAG estimated that Accounts Management function assistors only spend an average of
1.3 hours actually working an identity theft case. The additional time is spent while the assistor
waits for taxpayer responses or other documents needed to work the case (e.g., copies of tax
returns or account transcripts), works the telephones or other cases, or waits for adjustments to
be made on the cases. Assistors working the cases do not make the adjustments; the requests for
adjustments are sent to other IRS employees.
Identity theft cases have not been prioritized during the standard filing process
When taxpayers call the IRS to advise it that their electronic tax return was rejected because it
appears another individual has already filed a tax return using their identity, the IRS instructs
them to mail in a paper tax return with the Identity Theft Affidavit attaching supporting identity
documents. However, the IRS has been processing these tax returns using standard processing
procedures. After the tax returns are determined to be duplicates, they are queued with other
types of cases to be worked. This can add three to five months to the time a taxpayer must wait
to have his or her identity theft case resolved.
The IRS plans to update tax return processing procedures by June 2012 to include a special
processing code to recognize identity theft documentation provided with a paper-filed tax return.
The tax return will then be forwarded to the Accounts Management function to be assigned to an
assistor, rather than continuing through the standard duplicate tax return procedures.
Resources have not been sufficient to work identity theft cases dealing with refund fraud
     When 61 assistors who work identity          Identity theft has grown significantly, but resources
     theft cases were asked if they also          have not kept pace. Assistors in the Accounts
     answer the telephone, 53 (87 percent)        Management function also work other types of cases
     responded yes.                               and respond to taxpayers’ calls to the IRS’s various
     32 of those (60 percent) stated that         toll-free telephone lines.20 The IRS has a limited
     they worked the toll-free line exclusively   number of resources and must allocate those resources
     during the 2011 Filing Season and did        between answering toll-free telephone lines and
     not work identity theft cases.
                                                  working correspondence and adjustments to taxpayer
                                                  accounts.

19
   The Accounts Management function in the Wage and Investment Division provides assistance to individual
taxpayers with tax and account-related inquiries via telephone, correspondence, and e-mail.
20
   See Appendix VII for assistor job titles and duties.
                                                                                                       Page 9
                      Most Taxpayers Whose Identities Have Been Stolen to Commit
                         Refund Fraud Do Not Receive Quality Customer Service



During the filing season when call demand is usually at its highest, more resources are shifted to
the telephones to answer calls, and correspondence and adjustment inventory processing is
placed on hold until call demand subsides. Taxpayer demand for telephone services has grown.
During the 2011 Filing Season, the IRS received 80 million attempts to call the toll-free
telephone lines, up from 54 million (48 percent) during the 2007 Filing Season.
Correspondence inventory (which includes identity theft cases) has also increased. As shown in
Figure 3, the volume of identity theft cases worked in the Accounts Management function has
grown more than 300 percent since Fiscal Year 2010.
                                  Figure 3: Identity Theft Cases in the
                                    Accounts Management Function
                                     for Fiscal Years 2010 and 2011

                                                                                    Change From
                                                    Fiscal Year   Fiscal Year        Fiscal Year
                                                       2010          2011            2010–2011
              Beginning Inventory                      13,528       39,005               188%
              Receipts                                222,827      434,393                95%
              Closures                                197,350      304,558                54%
              Ending Inventory                         39,005      168,840               333%
             Source: Accounts Management function management information reports.

The optimal inventory level of cases assigned to each assistor is 100 to 125 cases, but assistors
have had inventory exceeding 300 cases. The excessive inventory levels results in lapses in
casework.
The IRS acknowledges that resources are not sufficient to process the current volume of identity
theft cases and that without additional resources it is unlikely the upward trend in inventory
levels will be reversed. The ITAAG identified an inventory of more than 228,000 identity theft
cases that have been carried over from Fiscal Year 2010 to 2011 and estimated that it will require
287 staff years to resolve these cases.21 This inventory does not include cases that were currently
in the Duplicate Filing inventory. As of August 11, 2011, there were more than 500,000 cases in
the Duplicate Filing inventory. Assistors stated that over half of their cases are identity theft
cases. The IRS stated that it estimates that about 22 percent of the cases are identity theft cases.
Effects of untimely case resolution
Taxpayers affected by identity theft who are expecting a tax refund will experience delays in
receiving their refunds. Most taxpayers receive tax refunds and generally can expect to receive


21
     One staff year is approximately 2,080 hours.
                                                                                                   Page 10
                    Most Taxpayers Whose Identities Have Been Stolen to Commit
                       Refund Fraud Do Not Receive Quality Customer Service



them within a few weeks of filing their tax returns. Taxpayers are also burdened when they have
to make multiple contacts with the IRS trying to either resolve or determine the status of their
cases.
In addition, taxpayers could be further burdened if the address on the tax return filed by the
identity thief is used by the IRS instead of the address of the legitimate taxpayer. Many
taxpayers do not notify the IRS when they move, but just use their new/current address when
they file their tax returns. When the IRS processes a tax return with an address different from
the one it has on its systems for the taxpayer, it systemically updates the taxpayer’s account with
the new address. It does not notify the taxpayer that his or her account has been changed with
the new address.
While the IRS resolves the identity theft case, the identity thief’s address is the address on the
taxpayer’s record. Any IRS correspondence or notices unrelated to the identity theft case will be
sent to the most recent address on record. The legitimate taxpayer (the identity theft victim) will
be unaware the IRS is trying to contact him or her.
This situation can also create disclosure issues. For example, if the legitimate taxpayer’s prior
year tax return has been selected for examination, the examination notice will be sent to the
address of record—the address the identity thief used on the fraudulent tax return. The identity
theft victim is now at risk at having his or her personal and tax information disclosed to an
unauthorized third party (whoever resides at that address).
Identity theft indicators are to be placed on a taxpayer’s account when the IRS receives
substantiation from the taxpayer that he or she has been a victim of identity theft. However, the
indicators do not prevent systemic notices or correspondence from being issued.

Identity theft cases are not always resolved effectively

     Results of surveys showed that 114 of          Case reviews show that identity theft cases were not
     178 (64 percent) assistors expressed           appropriately classified and identity theft indicators
     concerns about identity theft guidelines,
                                                    were not always input correctly or timely. Taxpayers
     commenting that the guidelines:
                                                    were asked numerous times to prove their identities,
        Are unclear, conflicting, confusing,       although they had previously followed IRS
         unorganized, or difficult to find.         instructions and sent in an Identity Theft Affidavit and
        Do not address all situations and          copies of identification. Multiple closing letters were
         need specific examples.                    sent to victims at different times, possibly confusing
        Should be condensed.22                     the victims.



22
  Three different but similar surveys of 178 assistors in five IRS offices involved in working identity theft issues
were conducted. The survey results include interviews with assistors and one formal survey conducted by the IRS.
Not all assistors were asked the same questions and not all assistors responded to all questions.
                                                                                                            Page 11
                       Most Taxpayers Whose Identities Have Been Stolen to Commit
                          Refund Fraud Do Not Receive Quality Customer Service



Guidance is dispersed throughout the IRS’s Internal Revenue Manual and has been inconsistent
and confusing
Identity theft guidelines and procedures are dispersed among 38 different Internal Revenue
Manual sections. These guidelines and procedures are not arranged for efficient access and are
inconsistent and conflicting. Additionally, not all functions have written guidelines on how to
handle identity theft issues.
The ITAAG reported that it has analyzed the identity theft processes and procedures of
28 functions and identified 50 gaps that have been addressed or elevated for remediation. For
example, the ITAAG determined that current guidance regarding the input of Action Code 501
and 522 is unclear, which causes employees to mark accounts improperly.23 Functions also lack
efficient processes and communication regarding working cases referred from other functions.
Assistors are not receiving sufficient training to work and resolve identity theft cases
     Survey results of 178 assistors showed               Training is inconsistent or nonexistent. Instructors
     that almost half of the assistors believe            develop local training based on the Internal Revenue
     training is not sufficient to provide                Manual and other documents that they decide to
     effective customer service. In two offices,
     insufficient training was the leading issue
                                                          incorporate into their training package. For
     frustrating assistors. In another office,            example, training material at one office showed
     29 (48 percent) of 61 assistors indicated            training guidelines deviated from the Internal
     that their identity theft training was not           Revenue Manual with respect to the critical timing
     sufficient; eight (13 percent) had received          of the identity theft marker Action Code 501.
     no identity theft training.

When auditors asked assistors questions about identity theft indicators:
           18 (69 percent) of 26 assistors could not provide a correct answer on when to input
            Action Code 501.
           14 (67 percent) of 21 assistors did not know the correct use of Action Code 522.
           35 (57 percent) of the 61 assistors could not provide the proper definitions needed to
            correctly categorize the types of identity theft cases.

Communications with victims of identity theft is inconsistent and confusing
      The IRS does not advise taxpayers when it has received their documents substantiating their
       identity and opened their case. When taxpayers do not hear from the IRS, they may call
       again to determine if the IRS has the requested documents and/or if they need to resend them.
       In cases reviewed, it appeared that taxpayers sent the documents more than once because
       they did not hear from the IRS that it received them.


23
     See Appendix V for a list of identity theft indicators with their descriptions.
                                                                                                      Page 12
                    Most Taxpayers Whose Identities Have Been Stolen to Commit
                       Refund Fraud Do Not Receive Quality Customer Service



    Taxpayers are not provided realistic time frames for how long it will take to resolve their
     cases. It can take over a year to resolve a taxpayer’s account. However, when taxpayers
     contact the IRS to report that a tax return has already been filed using their Social Security
     Number, assistors are instructed to just advise taxpayers that there will be processing delays
     while the situation is resolved and they may receive correspondence requesting additional
     information. If a time frame is provided, the time frame is usually 90 days, which has not
     been realistic. Assistors we surveyed expressed frustration with the time frames they are to
     use when advising taxpayers on how long it will take to resolve their cases.
    Taxpayers may be requested to provide documents substantiating their identities more than
     once.
    Letters sent to taxpayers are repetitive and contain errors. Assistors use the Correspondex
     system to generate letters to taxpayer.24 Case reviews showed letters reflecting incorrect tax
     years, incorrect IRS telephone numbers, typographical errors, and repetitive paragraphs.
    The IRS sends taxpayers two different letters advising them that their identity theft case is
     resolved. Assistors working an identity theft case send a letter to a taxpayer when they have
     completed actions taken on the case. A second letter is systemically generated two to
     12 weeks later advising the taxpayer again that their case has been resolved. Neither letter
     advises when the taxpayer should expect to receive his or her tax refund.
    Taxpayers often do not speak directly with the assistors who are working their identity theft
     cases. They call the IPSU to discuss the status of their case. However, IPSU assistors do not
     resolve identity theft cases and have limited information about a taxpayer’s identity theft
     case. Taxpayers testifying before Congress stated that they had to talk to multiple IRS
     employees and were provided conflicting instructions.
    The IRS’s current structure has provided limited oversight to ensure that identity theft cases
     are timely and effectively worked.
Identity theft case processing is highly decentralized and coordination and oversight has been
limited. The different systems used by the various functions have prevented accurate tracking
and reporting of identity theft workloads and their affect on tax administration. Because there is
no effective way to track and report on identity theft, the IRS has also not been able to determine
the quality of customer service provided.
Case processing is dispersed among 16 IRS functions and offices. Yet the PGLD office within
the Operations Support Organization is responsible for driving identity theft policy and processes



24
   The Correspondex System provides over 400 letters to fit specific situations, one of which is identity theft. The
letters give IRS assistors the flexibility to choose from up to 73 selective paragraphs and create numerous “fill-ins”
to communicate information to taxpayers.
                                                                                                              Page 13
                 Most Taxpayers Whose Identities Have Been Stolen to Commit
                    Refund Fraud Do Not Receive Quality Customer Service



across the IRS. It implements new identity protection measures and works closely with the
IPSU, but does not:
      Oversee the functions and offices that work and            The PGLD office oversees the
       resolve identity theft cases.                             Identity Theft Program but does
                                                                   not work identity theft cases
      Periodically review the offices and functions or           and has no authority over the
       their processes to ensure that policy and                 functions that work and resolve
       procedures are being followed.                                   identity theft cases.

The PGLD office’s inability to track and monitor
identity theft cases has also hindered its effectiveness. Offices and functions may be reluctant to
share negative data, and the PGLD office cannot pull reports to determine if cases are being
timely resolved in all the offices and functions involved in identity theft case processing. PGLD
office officials noted that obtaining accurate and comprehensive statistical data from the
functions when no line authority exists has been problematic.
IRS-wide identity theft reports have not been accurate or complete
Identity theft data are captured on 22 different systems throughout the IRS. These systems are
not integrated and data must be manually compiled, hindering the IRS’s capability of producing
accurate and reliable identity theft reports.
      Not all identity theft cases are counted.
       o Identity theft incidents reported on Forms 3949A, Information Referral, are often not
         considered when tracking identity theft. In some instances, taxpayers report identity
         theft on Forms 3949A and mail them to the IRS Fresno, California, campus. The
         Fresno campus office should forward the Forms 3949A to the appropriate office(s).
         Tests showed these cases were not all worked and/or considered identity theft cases.
       o Not all identity theft cases are counted because employees are not consistently
         inputting identity theft indicators on taxpayer accounts.
      Not all cases counted are actually identity theft cases. Cases other than identity theft are
       reported as identity theft cases when identity theft indicators are input and are not
       removed after the IRS determines identity theft has not occurred. From a judgmental
       sample of 17 unique taxpayer cases, five (29 percent) were not identity theft, but identity
       theft indicators had not been removed from the accounts.
As of June 2011, the PGLD office estimated the number of unmarked accounts that should have
identity theft indicators in the range of 240,000 to 280,000 cases.
On December 23, 2011, the IRS implemented interim procedures requiring the identity theft
indicators be reversed once a case is determined not to be identity theft. Most indicators are not


                                                                                            Page 14
                 Most Taxpayers Whose Identities Have Been Stolen to Commit
                    Refund Fraud Do Not Receive Quality Customer Service



input to the account until all actions on the case have been taken. However, Action Code 522 is
to be input when the identity theft documentation has been received from the taxpayer.
The IRS acknowledges that it does not know the exact number of identity theft incidences or the
number of taxpayers affected by identity theft. It also has not been able to quantify the amount
of improper payments resulting from identity theft.
Complete identity theft workload data have not been available
Reports on the volume of open identity theft cases, i.e., cases in process, are nonexistent or
inaccurate.
      Not all functions and offices have identifiers to track identity theft cases.
      Functions and offices working identity theft cases
       do not accurately track the amount of revenue lost
       or protected.                                              There are no reports that capture
                                                                  the total number of identity theft
      There are no reports to track the total number of           cases open and closed and the
       employees working identity theft cases or the                  status of the open cases. 
       amount of time it takes the employees to work
       and resolve the cases.
      Cases may be counted more than once.
The ITAAG determined that it was not possible to identify the overall volume and type of
identity cases related to each specific business unit. It is working with each business unit to
identify the current open inventory and the staff needed in each individual specialized unit to
work identity theft cases.
Sufficient data have not been collected to properly monitor the quality of assistance
provided
The IRS does not administer customer satisfaction surveys to identity theft victims, and the
quality review systems used by different IRS functions do not select a sufficient number of
identity theft cases to measure the quality of customer service provided to taxpayers who have
been affected by identity theft.
Customer satisfaction surveys are used to develop performance measures that balance customer
needs with IRS operational needs. Taxpayers who receive specific kinds of services from the
IRS are asked to rate the service. Quality reviews of IRS products and services are part of an
integrated service-wide system of balanced performance measures that includes Customer
Satisfaction, Employee Satisfaction, and Business Results.
Both customer satisfaction surveys and the National Review Quality System use statistical
sampling to gather information on various IRS product lines—generally interactions between
IRS employees and taxpayers involving either the telephone or casework. However, neither
                                                                                             Page 15
                 Most Taxpayers Whose Identities Have Been Stolen to Commit
                    Refund Fraud Do Not Receive Quality Customer Service



focus on identity theft cases and neither include a sufficient number of identity theft cases to
measure customer satisfaction or quality.

ITAAG recommendations address many but not all of the challenges identity theft
presents to tax administration and taxpayers
Many of the problems impeding the timely and effective resolution of identity theft cases are
caused by the growth of identity theft and the decentralization of the Identity Theft Program
throughout the IRS. The ITAAG addressed many of the problems with the following
recommendations:
   Reorganize to have an Identity Theft Program Specialized Group within each of the
    business units and/or functions where dedicated employees work the identity theft
    portion of the case.
    o Implement a Specialized Group and develop and/or revise processes within each function
      for referring, receiving, working, monitoring, and closing/adjusting identity theft cases.
    o Develop a training course for employees interacting with identity theft victims and
      working identity theft cases.
    o Update procedures in various sections of the Internal Revenue Manual.
   Strengthen roles and responsibilities of the PGLD office to include, for example:
    o Program reviews of functions and periodic review of Internal Revenue Manual sections
      to verify consistency and identify breakdowns in processes.
    o Establishing an Identity Theft Executive Steering Committee to provide governance
      related to identity theft IRS-wide.
    o Tracking and reporting. This is to be facilitated by the development of a centralized
      repository to store and retrieve identity theft documentation efficiently.
   Begin collecting IRS-wide identity theft data to assist in tracking and reporting the
    affect identity theft has on tax administration.
The IRS reports that it has already begun revising the guidelines and providing training for
employees who interact with identity theft victims and work identity theft cases. It also has
determined how many more resources (staffing) are needed by each of the Specialized Groups to
work identity theft cases and plans to have them in place by August 2012. It has established an
Identity Theft Steering Committee and has begun developing mechanisms to collect data
regarding taxpayer satisfaction and quality reviews. Finally, in Fiscal Year 2012, the IRS plans
to begin collecting IRS-wide identity theft data to be used to oversee the Identity Theft Program
and report to stakeholders.


                                                                                             Page 16
                 Most Taxpayers Whose Identities Have Been Stolen to Commit
                    Refund Fraud Do Not Receive Quality Customer Service



Additionally, the ITAAG recommended that the IRS revise its current Strategic Plan to include
identity theft and provide specific goals and objectives to address issues related to identity theft.
However, there is no one office or one executive accountable for achieving those goals and
objectives. The PGLD office’s role is being strengthened to include governance, oversight, and
coordination. However, identity theft cases will still be dispersed to various IRS business units
and functions, each with their own priorities, goals, and objectives.
The above recommendations and planned actions are extensive. TIGTA will be conducting an
audit in Fiscal Year 2013 to evaluate the corrective actions the IRS has taken to improve its
Identity Theft Program.

The IRS needs to reassess how identity theft cases in the Accounts Management
function are worked
Although the IRS has far-reaching plans that, when implemented, should improve the Identity
Theft Program, it needs to assess the process it currently uses to work cases of victims who
cannot file their tax returns because an identity thief has used their stolen identities to file
fraudulent tax returns and receive tax refunds. These cases interfere with the victim’s ability to
file tax returns and receive tax refunds. If cases are not worked effectively, the taxpayer’s tax
return is affected in subsequent years and identity thieves are able to continue to defraud the
Government.
Cases involving individual duplicate tax returns are worked by the Accounts Management
function. The Internal Revenue Manual states:
       The Accounts Management function is responsible for taxpayer relations by answering tax
       law/account inquiries and adjusting tax accounts. In addition, it is responsible for providing
       taxpayers with information on the status of their returns/refunds and for resolving the majority
       of issues and questions to settle their accounts.

IRS employees who work in the Accounts Management function are assistors referred to as
customer service representatives. They are trained to communicate with taxpayers and to be
knowledgeable of tax law and related IRS operational procedures. The duties of an assistor are
varied. Many hours are spent working the telephones responding to taxpayer requests as well as
working paper cases. Paper cases include both incoming taxpayer correspondence and internally
generated cases—from working changes of taxpayer addresses to making adjustments to
taxpayer accounts.
Accounts Management function assistors are not examiners and are not trained to conduct
examinations
However, identity theft cases, like examination cases, can be complex and present considerable
challenges, requiring skills and tools beyond those of assistors. For example, it may be difficult
to determine which taxpayer is the legitimate taxpayer or if the case is actually a case of identity
theft. Cases can be complex, involving multiple years and tax situations.

                                                                                                   Page 17
                 Most Taxpayers Whose Identities Have Been Stolen to Commit
                    Refund Fraud Do Not Receive Quality Customer Service



Case reviews showed that assistors did not conduct in-depth research to identify the legitimate
taxpayer. For example, there were no indications in the case notes that the assistor researched
the addresses, filing and employment histories, etc., on the apparent identity thief or taxpayer.
Auditors could not determine the resolution of a number of cases or why the cases were still
open. In most cases, auditors had to reconstruct the cases to determine if all actions had been
appropriately taken to resolve them.
Case histories did not include information on the issues of the case (facts gathered) or the actions
taken or the conclusions drawn to resolve the case. Limited case histories prevent anyone,
including the assistor assigned to a case, from understanding the taxpayer’s situation and what
actions have been taken on a case or still need to be taken to resolve the case. This increases the
need to spend additional time when assistors are pulled away to work other assignments. This
also hinders quality reviewers from determining if the case was resolved timely and
appropriately.
Examiners are required to prepare workpapers to:
      Document the actions taken on the case to include evidence or information gathered,
       procedures and techniques applied, tests performed, documentation of actions taken, and
       conclusions.
      Assist in planning, including the analysis of internal documents, and record the evidence
       gathered, procedures completed, tests performed, and analyses conducted during the
       examination.
      Provide a basis for review, for purposes such as managerial and technical or quality
       review.
The Correspondence Imaging System was implemented as an inventory control system, not to
track taxpayer correspondence cases or to manage and control complex identity theft cases
      It does not capture the time the assistor takes to actually work the case; it only tracks the
       time a case is open on the system.
      One taxpayer may have multiple identity theft cases open on the Correspondence
       Imaging System. When documents are scanned into the system and a case is already
       open for a taxpayer, the documents should be linked to the open case. However, this
       does not always happen in practice. Instead a new case is opened and assigned to a
       different assistor, making it difficult (1) for the IRS to track a taxpayer’s cases, (2) to
       determine how long a case took to be resolved, and (3) to determine how many identity
       theft cases are actually in process.
       Identity theft cases require a considerable number of documents, for example, copies of
       tax returns or tax account transcripts, the Identity Theft Affidavit, and copies of
       identifying documents. This increases the risk that a separate case will be opened.

                                                                                             Page 18
                      Most Taxpayers Whose Identities Have Been Stolen to Commit
                         Refund Fraud Do Not Receive Quality Customer Service



          Multiple assistors may work one taxpayer’s identity theft case. This can burden
           taxpayers when they are asked numerous times to prove their identities or respond
           to IRS correspondence. Currently there is no report for assistors to identify all open
           cases at sites other than their own. Cases were closed and reopened to change identity
           theft categories.25 In some instances, new cases were opened when the IRS received
           documentation from the taxpayer (rather than associating the documentation with the
           taxpayer’s open case).
Assistors’ training can be revised to include procedures on how to better work identity theft
cases and document case histories. This will ensure cases are worked appropriately. It will also
allow quality reviewers to effectively review identity theft cases worked by Accounts
Management function assistors.
Screening procedures can also be improved to ensure research is completed on a document
before scanning it into the Correspondence Imaging System. Employees do not always screen
documents appropriately to determine if they belong to an open case or if a new case should be
opened. This results in multiple cases opened for one taxpayer or one taxpayer’s case or cases
being assigned to more than one assistor.
The IRS has dedicated 400 additional employees to the Accounts Management function to work
identity theft cases. However, because of limited resources and the high taxpayer demand for
telephone assistance, the IRS plans to continue to have assistors who work identity theft cases
also work the telephones on Mondays (and any Tuesday following a Monday holiday).
This presents a considerable challenge in overcoming the backlog of identity theft cases.
Additionally, if controls the IRS plans to implement in the future do not decrease identity theft
incidences and identity thieves continue to prevent taxpayers from filing their tax returns,
inventory could remain significant.

The IPSU does not resolve identity cases more quickly or effectively

     Survey results showed that 73 (60 percent)         The IPSU does not resolve identity theft cases.
     of 121 assistors could not provide callers         Instead it monitors victims’ accounts. It has
     with the accurate dates on when their              attempted to coordinate with the 16 different
     identity cases would be resolved. Not              functions to ensure identity theft cases are being
     being able to provide callers with clear
     time frames was a source of significant
                                                        effectively worked. IPSU assistors take telephone
     frustration for the assistors, along with          calls from taxpayers reporting identity theft or
     unclear, conflicting information.                  inquiring about their identity theft cases.
To determine the status of an identity theft case, IPSU assistors generally do not contact assistors
working the cases to determine the statuses of cases, but instead research the status of cases on


25
     A four-digit code that denotes the type or source of an adjustment or correspondence case.
                                                                                                    Page 19
                Most Taxpayers Whose Identities Have Been Stolen to Commit
                   Refund Fraud Do Not Receive Quality Customer Service



IRS systems. However, the histories of cases are limited, and IPSU assistors cannot determine
when the caseworkers will have the time to work or resolve the cases.
IPSU assistors could issue Form 14103, Identity Theft Assistance Request, to other IRS functions
to treat the case as a priority, but generally there is no follow-up to ensure this priority
designation is followed, and when assistors need additional time to work the case, the time is
automatically extended. Additionally, the IPSU does not have procedures for what to do if the
functions do not respond to an Identity Theft Assistance Request.
The IRS formed the IPSU to reduce taxpayer burden by providing individualized assistance,
including a single customer service representative to work with each identity theft victim to
answer questions and resolve his or her issues. In reality, this is not how the IPSU has been
working.
The IRS should reassess the role of the IPSU since it is not meeting its original purpose of
providing taxpayers with a single assistor to work with each identity theft victim to answer
questions and resolve his or her issues. The new Identity Theft Program needs to ensure that
each identity theft victim is provided a contact number for the IRS employee who is working his
or her case and who can answer questions and resolve issues.

Recommendations
Recommendation 1: The IRS Commissioner should establish accountability for the Identity
Theft Program by ensuring all expectations, goals, and objectives for employees, functions, and
offices involved are updated to include the Identity Theft Program.
       Management’s Response: IRS management agreed that with the significant increase
       in identity theft cases in the IRS over the past few years, it is important that the IRS set
       common goals and expectations for the offices and employees working these cases. The
       ITAAG also recognized this need, and the PGLD Office of Identity Protection has
       incorporated it into the Identity Theft Future State Plan. Based on this recommendation,
       the IRS established a governance structure consisting of an Executive Steering
       Committee and an Advisory Council comprised of operating division senior executives.
       This two-tier governance process oversees the implementation of enterprise-wide identity
       theft initiatives within the IRS organizations, collaborates on identity theft issues or
       concerns, and assesses overall program delivery.
       Concurrently, the IRS anticipates that the IRS’s strategic plan for 2014–2018 will include
       and emphasize identity theft-related content. Once the overall IRS plan is completed and
       distributed, IRS operating divisions and functions will use it to build their individual
       plans around the objectives contained in the IRS’s plan. It is expected that these
       objectives will then be used to develop individual office work plans as well as
       commitments for executives, managers, and management officials, thus establishing

                                                                                           Page 20
                 Most Taxpayers Whose Identities Have Been Stolen to Commit
                    Refund Fraud Do Not Receive Quality Customer Service



       accountability for the Identity Theft Program from the Commissioner to individual
       employees responsible for carrying out the Program’s goals.
The Deputy Commissioner for Operations Support should:
Recommendation 2: Implement a process to ensure that while an identity theft case is being
resolved, IRS notices and correspondence are not sent to the address listed on the identity thief’s
tax return.
       Management’s Response: IRS management agreed with this recommendation and is
       exploring options in this area. In January 2012, the IRS expanded its identity theft
       indicator codes that annotate when there is a claim of identity theft. The IRS developed
       tracking indicators to mark taxpayer accounts when the identity theft incident is initially
       alleged or suspected and will explore leveraging this new indicator to suspend certain
       correspondence. The IRS is currently establishing specialized groups to process all
       identity theft cases within each operating division. Once these groups are established, the
       IRS will conduct a study to determine the feasibility of expanding notice suspension or
       suppression to all functions that work identity theft cases.
Recommendation 3: Conduct an analysis of the letters sent to taxpayers regarding identity
theft, including Correspondex letters, to ensure the letters are still relevant, provide sufficient
information, and are consistent, clear, and complete.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS will review its existing suite of identity theft letters to determine if the information
       contained therein is accurate and applicable to the taxpayer’s identity theft circumstance.
       The IRS will leverage technology to move towards automation to reduce manual
       processing of identity theft victim notification letters and improve the content and clarity
       of the notifications to improve communications with taxpayers affected by identity theft.
       The IRS has already taken steps in this direction. In Fiscal Year 2011, the IRS modified
       and reformatted one of its victim notification letters, making it more user-friendly and in
       plain language.
Recommendation 4: Ensure taxpayers are notified when the IRS has received their
identifying documents and/or it has opened their identity theft cases. The notification should
provide victims with contact information and a clear understanding of the time frame and process
to resolve their cases.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS is updating its Internal Revenue Manual to instruct employees to notify taxpayers
       and acknowledge receipt of their documentation. The actual implementation dates will
       vary since in some business units a systemic process will be developed. As each business
       function handling identity theft cases develops a plan to establish a specialized group to


                                                                                              Page 21
                 Most Taxpayers Whose Identities Have Been Stolen to Commit
                    Refund Fraud Do Not Receive Quality Customer Service



       process all identity theft cases, the IRS will conduct a study to determine the feasibility of
       developing new processes for taxpayer notification, to include resolution time frames.
Recommendation 5: Until controls are in place to prevent identity thieves from filing tax
returns using others’ identities, create a specialized unit in the Accounts Management function to
exclusively work identity theft cases. These assistors should be provided additional training to
include the importance of documenting case actions and histories on the Correspondence
Imaging System.
       Management’s Response: IRS management agreed with the recommendation. The
       Accounts Management function currently has specialized units working only identity
       theft cases throughout the year, except for providing minimal phone assistance during the
       peak filing season. Additionally, the Accounts Management function is currently
       reviewing Correspondence Imaging System case notes for consistency and will provide
       updated guidance upon completion.
Recommendation 6: Ensure all quality review systems used by IRS functions and offices
working identity theft cases are revised to select a representative sample of identity theft cases
for quality review. This will allow the IRS to track the quality of the cases and measure its
progress in timely and effectively resolving identity theft cases.
       Management’s Response: IRS management agreed with the recommendation. The
       IRS previously developed and implemented a suite of key performance measures to assist
       in determining the effectiveness and efficiency of the Identity Theft Program. The IRS
       will create a specific quality review dedicated to identity theft cases. The IRS is currently
       working with the Centralized Quality Review System to identify necessary steps to
       develop a Specialized Product Review Group for identity theft. The quality review
       metrics will enable the IRS to develop enhanced performance measures and evaluate the
       overall quality of identity theft casework.
       In Fiscal Year 2012, the IRS began processes to enhance the quality of identity theft
       casework. The IRS developed a reporting process to capture and consolidate IRS-wide
       identity theft data that tracks and identifies inventory workload. The IRS will perform
       compliance reviews of identity theft cases to determine if case actions adhere to policy
       guidelines.
Recommendation 7: Revise procedures for the screening process for the Correspondence
Imaging System used to control Accounts Management function identity theft cases to ensure
accounts are researched before correspondence and documents are scanned into the system. This
will reduce the number of multiple open cases for one taxpayer and improve inventory tracking
and will also help limit the number of cases assistors are required to review.
       Management’s Response: IRS management agreed with the need to decrease
       multiple open cases. The Accounts Management function is piloting processes associated

                                                                                             Page 22
                 Most Taxpayers Whose Identities Have Been Stolen to Commit
                    Refund Fraud Do Not Receive Quality Customer Service



       with research products requiring an upload to the Correspondence Imaging System.
       Specifically targeted are the additional requests for returns and transcripts that are often
       associated with multiple controls. The IRS anticipates that the processes tested during
       the pilot will reduce the number of multiple controls. Additionally, as the identity theft
       process continues to evolve, case resolution time frames will decrease, leading to a
       reduction in the number of multiple cases.

Data From Identity Theft Cases Are Not Being Used to Prevent Refund
Fraud
The IRS uses little of the data from the identity theft cases worked in the Accounts Management
function to identify any commonalities, trends, etc., that could be used to detect or prevent future
refund fraud. This includes, for example:
      How the tax return was filed—by electronic filing or on paper, using a preparer or
       software package.
      The preparer’s name and Preparer Tax Identification Number if prepared by a preparer.
      The address on the tax return.
      Income information from applicable Forms W-2, Wage and Income Statement.
      The amount of the tax refund, whether it was issued, and how it was issued—by paper
       check, debit card, or direct deposit.
      The account or debit card number used to issue the tax refund.
A key aspect of the IRS’s redirection of its Identity Theft Program is stepping up outreach to and
educating taxpayers so they can prevent and resolve tax-related identity theft issues quickly. The
ITAAG report also recommends developing widespread outreach programs directed at enhancing
taxpayer awareness of identity theft tactics, preventative measures, and resolution options.
However, the current systems do not capture the data needed to support these efforts.
After resolving the identity theft case, the information from the identity thief’s tax return is
deleted from the legitimate taxpayer’s account and moved to a temporary account. A special
account is created for the identity thief using a temporary IRS Number (IRSN). However, the
account is not flagged as an identity theft account, and IRSNs are used for other purposes.
Therefore, the IRS is unable to determine which accounts were created because of identity theft.
If the IRS could identify IRSN accounts as identity theft accounts, that would allow it to use the
information from the tax return to identify patterns and trends among perpetrators of identity
theft. This would assist the IRS in establishing accurate data with respect to revenue lost due to
identity theft and in better understanding the “look” of potential identity theft cases. This


                                                                                             Page 23
                Most Taxpayers Whose Identities Have Been Stolen to Commit
                   Refund Fraud Do Not Receive Quality Customer Service



information would aid in development of other treatments and approaches to identity theft tax
fraud.

Recommendation
Recommendation 8: The Deputy Commissioner for Operations Support should ensure
programming for IRSN processing is adjusted so that IRSNs related to identity theft and
associated account data can be tracked and analyzed for trends and patterns.
       Management’s Response: IRS management agreed with the recommendation. The
       ITAAG also recommended that the IRS develop a mechanism to pull metrics from
       IRSNs. This would enable the IRS to identify account attributes, as well as give them a
       better estimate of the revenue loss, though not a complete picture.
       The IRS is currently evaluating options for enhancing its ability to track and analyze the
       fraudulent identity theft information removed from a taxpayer account; however, IRSN
       enhancement is only one of the options being considered. The IRS is assessing the
       viability of these options using factors including impact to the operating divisions and
       statutory requirements. Until a universal tracking mechanism can be developed, the IRS
       is working to develop processes within the specialized groups to collect lost revenue data
       regarding identity theft using available data and metrics.




                                                                                         Page 24
                    Most Taxpayers Whose Identities Have Been Stolen to Commit
                       Refund Fraud Do Not Receive Quality Customer Service



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to evaluate whether the IRS is effectively providing assistance to
victims of identity theft. To accomplish our objective, we:
I.       Assessed whether the IRS maintains timely and complete identity theft case workload
         data.
         A. Evaluated how the IRS identifies, categorizes, and tracks identity theft cases.
         B. Determined whether the process the IRS follows for tracking identity theft ensures
            that all functions and offices that control and work identity theft cases are considered
            in overall inventory tracking.
II.      Determined reporting requirements related to identity theft.
         A. Obtained and reviewed IRS reports concerning identity theft for the last three years.
         B. Determined how the IRS uses available data to oversee the Identity Theft Program.
III.     Assessed whether the IRS timely and effectively resolves identity theft cases.
         A. Reviewed a judgmental sample of 17 open and closed identity theft cases from a
            population of 1.36 million. To select the sample, we identified the taxpayer accounts
            with Action Codes1 501 and 506 and judgmentally selected cases from the
            Examination and Accounts Management functions. A judgmental sample was
            selected because we did not plan to project our sample to the population.
         B. Reviewed the cases to determine if they were timely and effectively resolved.
IV.      Based on the case review results, related any deficiencies with possible training voids in
         either the quality or completeness of training provided.
         A. Assessed the IRS’s process to ensure complete training is provided to all employees
            who handle identity theft cases, including those employees who worked the cases in
            our case review samples.
         B. Reviewed any training surveys and interviewed randomly selected employees to
            assess whether they believe there is a need for improvements in identity theft training.


1
  The IRS uses transaction codes to identify a transaction being processed and to maintain a history of actions posted
to a taxpayer’s account on the IRS’s main computer system. Action codes are used with certain transaction codes to
place indicators on taxpayers’ accounts.
                                                                                                            Page 25
                 Most Taxpayers Whose Identities Have Been Stolen to Commit
                    Refund Fraud Do Not Receive Quality Customer Service



V.      Evaluated the IRS’s oversight process for ensuring that identity theft cases are timely and
        effectively worked. We identified the performance measures of the Identity Theft
        Program and how the IRS is using the measures to improve the program.
VI.     Assessed the processes for ensuring that IRS communications with taxpayers provides
        consistent, accurate guidance on how to report and resolve identity theft and presents the
        least burden to taxpayers and tax administration.
VII.    Determined whether the IRS is effectively reducing identity theft that affects tax
        administration to reduce fraudulent tax returns, improve customer service, and reduce
        taxpayer burden.
VIII.   Determined whether the IRS Identity Theft Program is organizationally configured within
        IRS operations so that the IRS’s ability to meet program objectives and goals is best
        ensured.
IX.     Identified any potential or planned changes (e.g., legislative and organizational) that may
        better position the IRS to assist taxpayers who may have been victims of identity theft.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s internal guidelines used by the
functions that process identity theft cases and the management information systems used to
control identity theft cases. We evaluated controls by interviewing management and reviewing
policies and procedures. We also selected and reviewed a judgmental sample of 17 cases.




                                                                                           Page 26
               Most Taxpayers Whose Identities Have Been Stolen to Commit
                  Refund Fraud Do Not Receive Quality Customer Service



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Lena Dietles, Audit Manager
Robert Howes, Lead Auditor
Jerry Douglas, Senior Auditor
Tracy Harper, Senior Auditor
Patricia Jackson, Senior Auditor
Kathy Coote, Auditor
Nelva Usher, Auditor




                                                                                    Page 27
               Most Taxpayers Whose Identities Have Been Stolen to Commit
                  Refund Fraud Do Not Receive Quality Customer Service



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief, Criminal Investigation SE:CI
Chief Financial Officer OS:CFO
Chief Technology Officer OS:CTO
Deputy Commissioner, Wage and Investment Division SE:W
Director, Privacy, Governmental Liaison and Disclosure OS:P
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships and Education, Wage and Investment Division
SE:W:CAR
Director, Privacy and Information Protection OS:P:PIP
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Senior Operations Adviser, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Joint Operation Center, Wage and Investment Division SE:W:CAS:JOC
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI
Director, Stakeholder Partnership, Education, and Communication, Wage and Investment
Division SE:W:CAR:SPEC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI




                                                                                    Page 28
                Most Taxpayers Whose Identities Have Been Stolen to Commit
                   Refund Fraud Do Not Receive Quality Customer Service



                                                                                 Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Taxpayer Burden – Potential; 167,619 taxpayers, projected to 838,095 taxpayers over
    five years (see page 5).

Methodology Used to Measure the Reported Benefit:
The outcome was determined based on the number of taxpayers affected by identity theft in
Calendar Year 2011. These taxpayers would potentially benefit (i.e., from improved customer
service) based on one or more of the recommendations contained in this report. We calculated
the taxpayers affected annually based on the PGLD Identity Protection Incident Tracking
Statistics Reports as of December 31, 2011. The annual total was extended for five years, for a
total of 838,095 taxpayers expected to be burdened without the recommended corrective actions.
The 167,619 potential taxpayers burdened were calculated using the IRS’s Identity Protection
Incident Tracking Statistics Reports reflecting Transaction Code 971, Action Codes 501 and 506.
The IRS determined that 473,433 of the 641,052 taxpayers reflected in the reports as taxpayers
affected were not burdened. These taxpayer accounts may be subject to a fraud scheme and/or
the taxpayers may not have a tax return filing requirement. These taxpayers are not included in
the calculation of the 167,619 taxpayers burdened. In addition, the taxpayers reflecting a
Transaction Code 971, Action Code 522, may be duplicated in Transaction Code 971, Action
Codes 501 and 506, and thus Action Code 522 counts were not included separately in the volume
of taxpayers burdened.




                                                                                          Page 29
                    Most Taxpayers Whose Identities Have Been Stolen to Commit
                       Refund Fraud Do Not Receive Quality Customer Service



                                                                                                  Appendix V

                                Identity Theft Indicators

The IRS developed and implemented identity theft indicator codes to centrally mark and track
identity theft incidents. Each indicator is input on affected taxpayers’ accounts using
Transaction Code 971 with six different action codes.1 The PGLD office currently uses these
identity theft indicators to gather IRS-wide identity theft data for reporting taxpayers affected
and identity theft incidents. One indicator, Action Code 522, is input to the taxpayer’s account
while the case is open. The remaining indicators are to be input only after all actions have been
taken on an identity theft case.

       Action
                                                           Description
       Code
         501       The taxpayer identifies himself or herself as a victim of identity theft. For example,
                   the taxpayer receives an IRS notice of underreported income.
         504       The taxpayer identifies himself or herself as a victim of identity theft. For example,
                   the taxpayer loses his or her wallet.
         505       The IRS identifies a taxpayer whose Personally Identifiable Information was lost or
                   disclosed because of an IRS data loss incident. For example, the IRS loses a
                   paper case file that contains the taxpayer’s Personally Identifiable Information.
         506       The IRS identifies and confirms a taxpayer who is an identity theft victim. For
                   example, the IRS identifies the taxpayer from a tax refund scheme.
         522       This indicator is input by the IRS when the identity theft documentation has been
                   received from the taxpayer. Action Code 522 was not implemented until Calendar
                   Year 2010.
         524       This indicator identifies a locked tax account because the taxpayer does not have
                   a current filing requirement, does not qualify for a refund of withholding or other
                   credits, and does not expect to qualify in the near future.
    Source: IRS Internal Revenue Manual.




1
  The IRS uses transaction codes to identify a transaction being processed and to maintain a history of actions posted
to a taxpayer’s account on the IRS’s main computer system. Action codes are used with certain transaction codes to
place indicators on taxpayers’ accounts.
                                                                                                            Page 30
                    Most Taxpayers Whose Identities Have Been Stolen to Commit
                       Refund Fraud Do Not Receive Quality Customer Service



                                                                               Appendix VI

               Number of Identity Theft Incidents and
             Taxpayers Affected in Calendar Year 2011 1

                                                                 Number of
                                                                 Taxpayers    Number of
    IRS Function or Office                                        Affected    Incidents

    Appeals Office: Attempts to resolve tax controversies,
    without litigation.                                                  68               80

    Automated Collection System Program: Contacts
    taxpayers by telephone to collect and resolve delinquent
    tax cases.                                                          811         1,355

    Automated Substitute for Return Program: Enforces
    filing compliance on taxpayers who have not filed
    individual income tax returns but owe a significant income
    tax liability.                                                    3,105         6,721

    Accounts Management Function: Provides assistance
    to individual taxpayers with tax and account-related
    inquiries via telephone, correspondence, and e-mail and
    works to resolve cases of duplicate tax returns.                 69,745        83,043

    Accounts Management/Taxpayer Assurance
    Function: Utilizes the Electronic Fraud Detection
    System to screen and verify the accuracy of wages and
    withholding reported on paper and electronically filed tax
    returns.                                                        545,074       967,945

    Automated Underreporter Function: Matches income
    reported by third parties to income reported on individual
    tax returns.                                                     42,695        49,146

    Compliance Service Collections Operations: Contacts
    taxpayers by correspondence to collect and resolve
    delinquent tax cases.                                             1,245         3,026

    Correspondence Examination Function: Conducts
    audits of individual tax returns by mail.                           577           606



1
    As of November 26, 2011.
                                                                                      Page 31
                  Most Taxpayers Whose Identities Have Been Stolen to Commit
                     Refund Fraud Do Not Receive Quality Customer Service




                                                                       Number of
 IRS Function or Office                                                Taxpayers    Number of
                                                                        Affected    Incidents

 Criminal Investigation: Investigates questionable
 refunds and fraudulent refund schemes.                                     3,471          3,522

 Field Assistance Office: Provides face-to-face
 assistance to taxpayers at 401 walk-in offices called
 Taxpayer Assistance Centers.                                               2,423          3,099

 Field Collection Function: Collects delinquent taxes
 and tax returns through the fair and equitable application
 of tax law.                                                                  161            353

 Field Examination Function: Conducts face-to-face
 audits of tax returns.                                                        43               55

 Submission Processing Function: Processes tax
 returns.                                                                   1,467          1,600

 Taxpayer Advocate Service: Assists taxpayers who are
 experiencing economic harm or seeking help in resolving
 tax problems that have not been resolved through normal
 channels.                                                                    449            518

 Other: Identity theft which cannot be identified as related
 to any existing Tax Administration Source types.                           4,565          4,565

 Total *                                                                  641,052      1,125,634
Source: IRS Identity Protection Incident Tracking Statistics Report.

*An individual taxpayer account may have more than one Action Code 501 and/or 506 incident present.
These codes may have been entered for different tax years and tax administration sources and may have
been input by different IRS offices and functions. Therefore, aggregating or summing the data provided
in the Number of Taxpayers Affected column will not yield an accurate total.




                                                                                              Page 32
                 Most Taxpayers Whose Identities Have Been Stolen to Commit
                    Refund Fraud Do Not Receive Quality Customer Service



                                                                                  Appendix VII

                      Assistor Job Titles and Duties

Assistors, referred to as IRS customer service representatives, include (but are not limited to) the
following named positions:

         Contact Representative.                              Tax Examiner.
         Individual Taxpayer Advisory Specialist.             Tax Law Specialist.
         Office Collection Representative.                    Tax Specialist.
         Senior Taxpayer Advisory Specialist.                 Tax Technician.
         Tax Account Representative.                          Taxpayer Service Representative.

 The duties of an assistor include, but are not limited to:
     o   Adjusting tax return accounts.
     o   Answering tax law questions.
     o   Assisting taxpayers directly or by transferring to the appropriate application.
     o   Preparing original and substitute returns.
     o   Proposing additional assessments.
     o   Securing delinquent returns.
     o   Resolving delinquent accounts.
     o   Responding to correspondence.
     o   Providing functional support (i.e., other duties as assigned).
 Taxpayer inquiries include telephone calls, correspondence, and personal contacts about:
     o   Accounts.
     o   Notices and letters.
     o   Payments.
     o   Refunds.
     o   Requests for forms, publications, and public use documents.
     o   Requests for Installment Agreements and Direct Debit Agreements.
     o   Requests for Payroll Deduction Authorizations.
     o   Requests for tax account adjustments.
     o   Requests for transcripts of accounts and account information.
     o   Tax law.
     o   Requests for addresses to mail returns, payments, and/or correspondence.



                                                                                            Page 33
    Most Taxpayers Whose Identities Have Been Stolen to Commit
       Refund Fraud Do Not Receive Quality Customer Service



                                                  Appendix VIII

Management’s Response to the Draft Report




                                                         Page 34
Most Taxpayers Whose Identities Have Been Stolen to Commit
   Refund Fraud Do Not Receive Quality Customer Service




                                                     Page 35
Most Taxpayers Whose Identities Have Been Stolen to Commit
   Refund Fraud Do Not Receive Quality Customer Service




                                                     Page 36
Most Taxpayers Whose Identities Have Been Stolen to Commit
   Refund Fraud Do Not Receive Quality Customer Service




                                                     Page 37
Most Taxpayers Whose Identities Have Been Stolen to Commit
   Refund Fraud Do Not Receive Quality Customer Service




                                                     Page 38
Most Taxpayers Whose Identities Have Been Stolen to Commit
   Refund Fraud Do Not Receive Quality Customer Service




                                                     Page 39
Most Taxpayers Whose Identities Have Been Stolen to Commit
   Refund Fraud Do Not Receive Quality Customer Service




                                                     Page 40
